No. 19-1258

IN THE
Supreme Court of the United States

ARIZONA REPUBLICAN PARTY, ET AL.

Petitioners,
v.

DEMOCRATIC NATIONAL COMMITTEE, ET AL.
Respondents.

CERTIFICATE OF SERVICE

As required by Supreme Court Rule 29.5 and the April 15, 2020 Order of this
Court, I hereby certify that the Reply Brief in Support of Petition for a Writ of
Certiorari in Arizona Republican Party v. Democratic National Committee, No. 19-

1258, was served via electronic mail on all parties required:

Marc Erik Elias Jessica Ring Amunson

PERKINS COLE, LLP JENNER & BLOCK LLP

700 18th St, NW 1099 New York Avenue NW

Suite 800 Suite 900

Washington, DC 20005 Washington, DC 20001

(202) 434-1609 (202) 639-6023

melias@perkinscoie.com JAmunson@jenner.com

Counsel for Respondent-Democratic Counsel for Respondent-Katie Hobbs,
National Committee Arizona Secretary of State

I declare under penalty of perjury that the foregoing is true and correct.

Date: July 29, 2020 thony J. Dick
